<html>
<title> - COLLABORATIVE SOLUTIONS TO WILDLIFE AND HABITAT MANAGEMENT</title>
<body><pre>[Senate Hearing 111-1235]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 111-1235
 
                  COLLABORATIVE SOLUTIONS TO WILDLIFE 
                         AND HABITAT MANAGEMENT

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON WATER AND WILDLIFE

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 27, 2010

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 



  
  


       Available via the World Wide Web: http://www.gpo.gov/fdsys
       
       
       
       
       
                              _________ 

                   U.S. GOVERNMENT PUBLISHING OFFICE
                   
 21-162 PDF                 WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                       
       
       
       
       
       
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                              ----------                              

                   Subcommittee on Water and Wildlife

                 BENJAMIN L. CARDIN, Maryland, Chairman
FRANK R. LAUTENBERG, New Jersey      MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                LAMAR ALEXANDER, Tennessee
JEFF MERKLEY, Oregon                 JAMES M. INHOFE, Oklahoma (ex 
BARBARA BOXER, California (ex            officio)
    officio)
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 27, 2010
                           OPENING STATEMENTS

Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     1
Crapo, Hon. Mike, U.S. Senator from the State of Idaho, prepared 
  statement......................................................     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     3
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     4

                               WITNESSES

Frazer, Gary, Assistant Director for Endangered Species, U.S. 
  Fish and Wildlife Service......................................     6
    Prepared statement...........................................     8
    Responses to additional questions from Senator Cardin........    15
    Response to an additional question from Senator Inhofe.......    16
Miller, Robyn, Inland Northwest Conservation Manager, The Nature 
  Conservancy....................................................    24
    Prepared statement...........................................    27
Benoit, Jeffrey, President and CEO, Restore America's Estuaries..    35
    Prepared statement...........................................    37
Straughn, Debbie, Principal, Grove Valley Elementary School, 
  Edmond, Oklahoma...............................................    76
    Prepared statement...........................................    78

                          ADDITIONAL MATERIAL

The Economic and Market Value of Coasts and Estuaries: What's at 
  Stake? by Linwood Pendleton. Executive Summary.................    85


       COLLABORATIVE SOLUTIONS TO WILDLIFE AND HABITAT MANAGEMENT

                              ----------                              


                        TUESDAY, APRIL 27, 2010

                               U.S. Senate,
         Committee on Environment and Public Works,
                        Subcommittee on Water and Wildlife,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:03 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Benjamin L. 
Cardin (Chairman of the Subcommittee) presiding.
    Present: Senators Cardin, Inhofe, and Whitehouse.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Welcome to the Subcommittee on Water and 
Wildlife of the Committee on Environment and Public Works. It 
is nice that Senator Inhofe is with us today. Senator Crapo, 
who is responsible for today's hearing, this was his 
contribution to have this hearing.
    I was very excited to do this, but Senator Crapo has been 
called to a higher calling today. He has been called to the 
White House in regards to the Debt Commission. So I think 
Senator Inhofe and I would rather be here than at the White 
House dealing with the Debt Commission, but we thank Senator 
Crapo for his incredible leadership on this subject.
    I know he has an opening statement that he wants to put in 
the record, and without objection, his opening statement will 
be made part of the record.
    [The prepared statement of Senator Crapo follows:]

                     Statement of Hon. Mike Crapo, 
                  U.S. Senator from the State of Idaho

    Good morning. Thank you, Mr. Chairman, for holding this 
very important hearing on collaborative solutions to wildlife 
and habitat management. As you know, this issue is of great 
importance to me--particularly with regard to the collaborative 
model of problem solving--and so I am very grateful for this 
opportunity.
    Idaho is home to some of the most remarkable and pristine 
ecosystems and landscapes that the United States has to offer. 
While Idaho's vast tracts of lands are known for accommodating 
many uses, one of the most important functions for these lands 
is hosting the countless wildlife species that can be found 
within our borders. Idaho is at the front of the pack for its 
number and diversity of wildlife species.
    Given the abundance and complexity of wildlife issues in 
Idaho, local, State, Federal and a variety of non-governmental 
entities have devoted significant time and resources to 
managing our wildlife populations and the lands that 
accommodate them in ways that make the most sense for our 
State, landowners and in compliance with wildlife and 
environmental protections. Over the years, such efforts have 
been contentious--both in Idaho and across the United States--
and at one point we were doing a lot less managing and a lot 
more fighting than we should have been doing. For years, 
efforts to effectively address public land, habitat and 
wildlife issues ended up in the courts; groups drew lines in 
the sand and continued to fight, and unfortunately that 
continues to be a problem today. However, significant 
improvements have been made in the form of collaborative 
partnerships, so this hearing is very timely.
    Senseless fighting over the management of our treasured 
natural resources can be a thing of the past. Wildlife 
management partnerships have been utilized for quite some time, 
but I am talking about taking it even further. The 
collaborative model--which requires all parties to come to the 
table and be willing to compromise--has proven successful and 
will continue to do so. With this model, local communities can 
come together with all of the stakeholder groups and produce 
solutions that work for the people, the wildlife, the lands and 
the government. Furthermore, the collaborative model has shown 
that people from entirely divergent backgrounds and with 
differing beliefs can, in fact, work together. I am hopeful and 
confident that this model will continue to pick up steam and 
that it will one day be used across the country to help address 
these challenging issues.
    Thank you again, Mr. Chairman, for holding this hearing.

    Senator Cardin. And we certainly want to acknowledge the 
work that has been done on the private partnerships on 
environmental issues that the Senator has been one of the 
leading voices in that regard, as Senator Inhofe has. And it is 
important that we get both the public and private sector 
working together on environmental issues.
    The vast majority of our Nation's land is privately owned, 
and the majority of fish and wildlife resources. Some of our 
most treasured migratory birds, fish and animals are located on 
those private lands. If we are going to be successful in our 
efforts to protect these species and these places, we all--
private, public, individual and organizations, businessmen and 
conservationists, farmers and fishermen--we all have to work 
together to make this happen.
    This hearing will focus on several initiatives at the Fish 
and Wildlife Service that promote collaborative solutions to 
wildlife and habitat management. For more than 20 years, the 
Fish and Wildlife Service has initiated collaborative 
arrangements with public and private entities to conserve or 
store and enhance critical habitats.
    Today's hearing will focus on three programs: Candidate 
Conservation Agreements, the Partners for Fish and Wildlife 
Programs, and the Coastal Program. We in Maryland know the 
importance of all these programs. They have been critically 
important to protect our most valuable lands.
    I want to comment briefly, if I might, on the Coastal 
Program. Coastal wetlands provide essential nutrients, food and 
shelter for shellfish, waterfowl, migratory birds and more than 
half of commercial fish. They protect coastal areas from storm 
damage, help stabilize shorelines and improve water quality by 
filtering waste and pollution that end up in our waters. The 
estimated national economic value of coastal wetlands is in the 
hundreds of billions of dollars.
    In Maryland, we depend on coastal wetlands for our 
livelihood and our way of life. So we are grateful for the work 
the Coastal Program has done in my State to protect these vital 
natural resources. In fact, the Chesapeake Bay was the home of 
the first coastal project.
    Since 2000 the Coastal Programs have completed 203 projects 
in Maryland alone to protect 66,000 acres of Maryland's 
treasured wetlands. So we are particularly interested in this 
critical program. It has been very successful, and I look 
forward to hearing from all of our witnesses on these three 
initiatives that are important for the protection of our 
environment.
    With that, I would turn to Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    Back in 2005 when Republicans were a majority, I chaired 
this Committee and was pleased to author and see enactment of 
the Partners for Fish and Wildlife Act. That was in October 
2006. I held a field hearing in Tulsa in April 2005 which 
featured one of the witnesses today, the Grove Valley Principal 
Debbie Straughn. Ms. Straughn established an outdoor classroom 
through the Partners Program. Former Fish and Wildlife Director 
Dale Hall, who was, I might say, an Okie, testified along with 
landowners who have benefited from the program.
    The hearing also explored how Partners Program and 
conservation projects were being developed alongside the 
agriculture community and others.
    I remember, Mr. Chairman, we had some people from out in 
the western part of Oklahoma, and they actually won awards in 
this Partnership Program for the types of things they developed 
and the results they are getting with conservation programs. So 
often, Government gets in the habit of telling everybody what 
to do instead of going and drawing out the fact that people who 
are landowners, they are proud, and they want to conserve. They 
want to do the things that Government generally is demanding of 
them, but I would rather come from that way.
    So you remember that, Debbie, because that was a great 
program. We had all those witnesses from western Oklahoma, and 
so it was good. So I believe all conservation problems could 
create a positive incentive, and that is why this program is a 
model for cooperative conservation, collaborating with 
landowners in voluntary agreements to conserve and even create 
habitat for a species.
    I support adequate funding for the Partners Program, but I 
am concerned that the funding Congress provides may be 
controlled by a political agenda, and I don't want that to 
happen. The Partners Program received $60 million in fiscal 
year 2010, which was around $7 million more than fiscal year 
2009 levels. However, $6 million of the fiscal year 2010 
funding was newly designated for assistance in response to 
climate change. Again, in the fiscal year 2011, the President's 
budget submission another $2 million has been requested for the 
same purpose.
    Consistently, Congress has not enacted climate change 
legislation for a variety of very legitimate reasons. I just 
don't like the idea that the Partnership Program, which is 
working so well, is being used for a different agenda.
    The Partners Program has developed more than 41,000 private 
landowner agreements, resulting in positive ecological and 
economic effects of tens of thousands of acres nationwide, 
including nearly 800,000 acres of wetlands, nearly 2 million 
acres of grassland and prairie habitat, and over 7,000 miles of 
in-stream habitat.
    In Oklahoma alone the U.S. Fish and Wildlife Service's 
Partners for Fish and Wildlife Program has provided nearly $5.5 
million, while private landowners have contributed over $16.5 
million to restore over 300,000 acres of habitat. That is a 
four to one ratio, and that is what we want. We want people to 
want to cooperate and to put private dollars in, and that is 
exactly what the Partnership Program has been successful in 
doing.
    So I look forward to the hearing, to the witnesses today, 
and promoting this program to a greater extent and other 
programs like it.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    In 2005, as Chairman of the Senate Environment and Public 
Works Committee, I was pleased to author and see the enactment 
of the Partners for Fish and Wildlife Act in October 2006. I 
held a field hearing in Tulsa, Oklahoma, in April 2005, which 
featured one of our witnesses today, Grove Valley Principal 
Debbie Straughn. Ms. Straughn established an outdoor classroom 
through the Partners Program. Former FWS Director Dale Hall 
testified along with landowners who have benefited from the 
program. The hearing also explored how Partners Program 
conservation projects were being developed alongside 
agriculture, ranching and oil and gas development. The Partners 
Program demonstrates that conservation, oil and gas 
development, and agriculture are not mutually exclusive.
    I believe all conservation programs should create positive 
incentives to protect species and above all should hold the 
rights of private landowners sacred. That is why this program 
is the model for cooperative conservation, collaborating with 
landowners in voluntary agreements to conserve and even create 
habitat for species. I support adequate funding for the 
Partners Program, but I am concerned that the funding Congress 
provides may be constrained by political agendas. The Partners 
Program received $60 million in fiscal year 2010, which is 
around $7 million more than fiscal year 2009 levels. Six 
million of the fiscal year 2010 funding, however, was newly 
designated for ``assistance in response to climate change.'' 
Again in the fiscal year 2011 President's budget submission, 
another $2 million has been requested of Partners Program 
funding for the same purpose. Consistently, Congress has not 
enacted climate change legislation for a variety of very 
legitimate concerns. It is important that the Partners Program 
remain focused on conservation and that otherwise eligible 
projects for the Partners Program are not rejected simply 
because the Administration wishes to impose a new climate nexus 
to Partners projects.
    The Partners Program has developed more than 41,000 private 
landowner agreements, resulting in positive ecological and 
economic effects on tens of thousands of acres nationwide, 
including nearly 800,000 acres of wetlands, nearly 2 million 
acres of grassland and prairie habitat, and over 7,000 miles of 
in-stream habitat. In Oklahoma alone, the U.S. Fish and 
Wildlife Service's Partners for Fish and Wildlife program has 
provided nearly $5.5 million, while private landowners have 
contributed over $16.5 million to restore over 300,000 acres of 
habitat in Oklahoma through over 1,000 individual voluntary 
agreements with private landowners. The rate of public to 
private investment is 4 to 1.
    On that high note, I welcome all the witnesses to the 
Committee and look forward to hearing more about your 
collaborative efforts.

    Senator Cardin. Thank you.
    Senator Whitehouse, from the coastal State of Rhode Island.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Mr. Chairman. I am honored 
to be here, and I appreciate your keen interest in coastal 
matters.
    For those of you in the audience, Senator Cardin and I have 
a friendly rivalry about the Ocean State, which is mine, and 
Maryland. We have more of a sailing and ocean presence.
    Senator Inhofe. And I am not in on either one of those 
deals.
    [Laughter.]
    Senator Whitehouse. He has some lovely photographs of 
sailing in his office that I contend were actually taken in 
Rhode Island. But this is an important hearing, and I 
appreciate him very much holding it.
    I also want to thank Senator Crapo who was one of the 
instigators, who couldn't be here right now, but his interest 
in this is very considerable.
    Senator Cardin and I share the characteristic of 
representing States that get a climate change double whammy. 
Not only do we face the terrestrial effects of climate change, 
and we see it in our orchard, for instance, blooming 
unseasonably in the winter because temperatures are 
unprecedentedly warm, but we also face it at sea along our 
coasts.
    We see it through sea level rise, which even small 
increments of sea level rise can produce really significant 
effects when, say, driven by storm surge and changing velocity 
zones under the Coastal Zone Management Act and changing 
development patterns, and putting infrastructure at risk.
    We see it in habitat shift as warming coastal waters change 
the habitat and the species that can live there, and we lose 
our traditional fisheries, and they are replaced with other 
species that come in to take advantage of the changed climate.
    And finally, we are both at risk of ocean acidification, 
which may prove to be the most damaging feature of climate 
change in terms of its effect on our species and on our planet.
    So for those of us getting that or vulnerable to that 
climate change double whammy, the role of the Coastal Program 
is very significant, and I am pleased that Mr. Frazer is here, 
and we will have the chance to discuss it.
    So thank you for your leadership, Senator Cardin.
    Senator Cardin. Well, thank you, Senator Whitehouse.
    Our first witness is Mr. Gary Frazer. Mr. Frazer is the 
Assistant Director for Endangered Species at the U.S. Fish and 
Wildlife Service. He is responsible for carrying out policy 
development and management of all aspects of the Endangered 
Species Act.
    Mr. Frazer started his career with the Service in 1984. He 
has served that Agency in many critical capacities and in many 
places across this country. We want to welcome him back to the 
Environment and Public Works Committee where he spent a year as 
a Fellow. We will not hold that against you.
    What year were you the Fellow here? We can start with that.
    Mr. Frazer. Senator, many years have passed since then. 
That was in the late 1980s, so about 1988, 1989. I remember 
very well my first time sitting back behind the dais.
    Senator Cardin. Right. That is before, I think, the three 
of us got to the U.S. Senate, so welcome. It is nice to have 
you back.
    Mr. Frazer. Thank you, Mr. Chairman.
    Senator Cardin. And your entire statement will be made part 
of the record, as will all of the witnesses', without 
objection, and you may proceed as you wish.

  STATEMENT OF GARY FRAZER, ASSISTANT DIRECTOR FOR ENDANGERED 
            SPECIES, U.S. FISH AND WILDLIFE SERVICE

    Mr. Frazer. Good morning, Chairman Cardin and Members of 
the Subcommittee. I am Gary Frazer, Assistant Director for the 
Endangered Species Program with the U.S. Fish and Wildlife 
Service. Thank you for the opportunity to be here today to 
testify on collaborative solutions to wildlife and habitat 
management.
    My testimony will focus on several programs through which 
the Service works in partnership with Federal, State and 
private land managers to conserve wildlife through habitat 
protection, restoration and management.
    These programs include the Coastal Program, the Partners 
for Fish and Wildlife Program, and several landowner tools 
within the Endangered Species Program.
    The Coastal Program was established in the Chesapeake Bay 
in 1985 and has since expanded to 23 coastal areas around the 
country. Through the Coastal Program, the Service partners with 
coastal communities to conserve and restore coastal ecosystems 
for the benefit of fish, wildlife and people. The Coastal 
Program provides technical and financial support through a 
variety of partnerships that conduct coastal habitat 
assessments and planning, protection and restoration 
activities.
    One of the Coastal Program's greatest strengths is its 
boots on the ground approach to achieving these conservation 
goals. Through these partnerships, the program leverages a 
minimum of one Federal dollar to four non-Federal dollars.
    A recent Chesapeake Bay success story is the Hail Cove 
Living Shoreline Project at the Eastern Neck National Wildlife 
Refuge in Kent County on the Eastern Shore. The Service, the 
Maryland Department of Natural Resources, Ducks Unlimited, and 
the National Aquarium led a partnership of 20 organizations to 
restore 1,600 feet of shoreline and protect over 200 acres of 
sea grass beds and wetlands that are one of the most important 
wintering areas for waterfowl in the Chesapeake Bay.
    The Coastal Program also co-administers the National 
Coastal Wetlands Conservation Grant Program in concert with the 
Service's Wildlife and Sport Fish Restoration Program. The 
program annually provides grants to coastal States to acquire 
and restore coastal wetlands. Since 1992 it has awarded nearly 
$240 million to States to protect, restore and enhance 260,000 
acres of coastal wetlands. In 2010 the program awarded $19.2 
million to support 25 projects in 11 different coastal States.
    Another flagship collaborative program, the Partners for 
Fish and Wildlife Program, first took root in the Midwest in 
the mid-1980s to restore wetlands on private lands that were 
severely degraded by agriculture development and recurring 
droughts. The Partners Program is a voluntary citizen and 
community-based stewardship program for fish and wildlife 
conservation. The program provides technical and financial 
assistance to private landowners for habitat improvement and 
restoration projects on private lands that benefit Federal 
trust fish and wildlife species.
    In 2006, with the support of Senator Inhofe and other 
Members of Congress, the Partners for Fish and Wildlife Act 
specifically authorized the assistance to private landowners 
that the Service carries out through the Partners Program.
    The Partners Program is also working to develop schoolyard 
habitat projects such as the Outdoor Classroom at Deer Creek 
Elementary School in Edmond, Oklahoma. Principal Debbie 
Straughn, a witness here today, has led the effort to plan, 
implement and maintain the Outdoor Classroom since 1997. 
Projects like this one provide the students with a powerful 
example of land stewardship and provide families and local 
businesses the opportunity to get involved in creating and 
maintaining wildlife habitat.
    Finally, the Service's Endangered Species Program has 
several tools that have been successful in creating 
partnerships with landowners to conserve species that are 
listed as threatened or endangered under the Endangered Species 
Act or that are candidates for listing.
    Candidate conservation agreements, or CCAs, are agreements 
between the Service and one or more landowners who voluntarily 
commit to manage in a way that removes or reduces threats to 
candidate species on Federal and non-Federal lands. The Service 
has entered into 110 CCAs over the last 15 years, primarily 
with other Federal agencies and States. Over 160 species of 
plants and animals have benefited from these agreements.
    Candidate conservation agreements with assurances, or 
CCAAs, are available only to non-Federal landowners and address 
the concern of these landowners about potential future land use 
restrictions if the candidate species should become listed 
under the ESA. CCAAs provide assurance that should the species 
become listed in the future, additional land use restrictions 
or mitigation commitments will not be required.
    Currently, there are 22 CCAAs in place, including one 
signed recently with Idaho Fish and Game for the greater sage 
grouse.
    Safe Harbor Agreements are voluntary agreements available 
to any non-Federal landowner that wants to aid in the recovery 
of species that are listed under the Endangered Species Act. In 
return for agreeing to implement management actions that will 
contribute to the recovery of listed, the landowner receives 
regulatory assurances that he or she can alter or modify the 
enrolled property and return it to the original baseline 
condition at the end of the agreement, even if that means 
incidentally taking the listed species.
    Through Safe Harbor Agreements, landowners could put their 
conservation ethic to work, confident that their voluntary 
efforts will not result in increased restrictions on how they 
use their land.
    Strong partnerships such as those I have described here are 
the cornerstone for the Service's work and mission. By building 
strong partnerships and initiating early and collaborative 
conservation efforts, we can best conserve fish and wildlife 
and restore and protect the habitat upon which they depend.
    The Department of the Interior and the Service appreciate 
your interest in these issues and thank you again for the 
opportunity to appear before you today. I would be happy to 
respond to any questions you may have.
    [The prepared statement of Mr. Frazer follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
            
    Senator Cardin. Well, Mr. Frazer, first thank you for your 
testimony, but more importantly, thank you for your service, 
your longstanding service on these issues. We very much 
appreciate that.
    In your statement, you talked about one of the important 
coastal program in Maryland, and we could duplicate that in 
many other parts of the Chesapeake Bay and the watershed. It 
has been a critically important partner in our Chesapeake Bay 
efforts. The wetlands are critical to our efforts to restore 
the Chesapeake Bay and to maintain the wildlife balance. So I 
thank you for bringing that up.
    I want to talk a little bit about the need for 
authorization. The Coastal Program is not authorized. The 
Partners for Fish and Wildlife Program was authorized in 2006. 
From a congressional point of view, authorization allows us to 
speak with definitive authority as to what we intend the 
program to be and to give it some permanency.
    But from the point of view of the Administrator, could you 
tell us how the authorization of the Partners for Fish and 
Wildlife Program in 2006 has worked? And whether there would be 
an advantage to get congressional authorization for the Coastal 
Program?
    Mr. Frazer. The Service has found that the codification of 
support for the Partners for Fish and Wildlife Program has 
helped to, first, institutionalize the program within the 
organization, as you said, but also clarify the congressional 
intent; helped us to focus our budget requests and our program 
delivery along those lines; and also to help us respond to 
requests from parties to have us take the program in different 
directions and to respond to other things that may not be 
central to the core mission.
    So we have found actually that organic legislation, that 
authorizing legislation helped us to maintain the focus and 
priorities that we had and that Congress established for the 
program.
    Senator Cardin. I think that is helpful. We are now looking 
at an authorization for the Coastal Program, and we will be 
reaching out to get not only the input from Members of the 
Senate and the House on this, but also the Administration to 
see whether we can't establish the more permanency of the 
program through an authorization. So we invite your 
participation in that.
    Mr. Frazer. We would be happy to work with the Committee on 
that.
    Senator Cardin. Thank you.
    I want to talk a little bit about the candidate 
conservation agreements. This was added to the Endangered 
Species Act as a common sense way to try to work out private 
agreements that could preserve wildlife diversity and perhaps 
even avoid the need for listing if we can do enough private 
conservation agreements. It was looked upon, as you suggested, 
as another tool in the tool box in dealing with protecting 
diversity in the species in this country.
    What I want to just explore a little bit, if I might, is 
how you go about goal setting and accountability as you look at 
these candidate conservation agreements to make sure that they 
in fact carry out the congressional intent of preserving 
diversity and are not used just as a way of avoiding the need 
to list where listing is essential.
    Mr. Frazer. When we enter into discussions with any 
landowner or land manager on developing either a candidate 
conservation agreement or a candidate conservation agreement 
with assurances, it is with biological goals in mind up front, 
to address the threats that those candidate species face, to 
the extent that we understand them, and to reach agreements on 
a management of individual parcels such that if all habitat 
within the range of the species was managed in a similar 
manner, that there is at least a strong likelihood that those 
threats would be remediated such that the species would no 
longer be facing the need for listing.
    So we have those clear biological goals and kind of a 
conservation design in mind before we solidify any agreement 
with a landowner, recognizing that individual landowners are 
contributing their slice, their piece to that overall effort. 
But it is important for us to have those clear expectations and 
objectives in mind.
    Senator Cardin. And I take it based upon that science 
available, these are not political judgments. These are 
scientific judgments.
    Mr. Frazer. They are not. And because these are candidate 
species, oftentimes we don't know everything that we want to 
know, and so we are using the best information available and 
exercising professional judgment as well as creativity in 
developing these agreements.
    Senator Cardin. So where is the accountability? What type 
of review process is in place to make sure that the 
expectations are reached?
    Mr. Frazer. Well, it is an explicit agreement between the 
landowners and the Fish and Wildlife Service. The CCAAs, the 
conservation agreements with assurances, actually have 
associated with it a permit that would become effective once 
the species is listed. And so there is a regulatory aspect as 
well. And so certainly the Service would look to ensure that 
the conservation agreement was carried out, consistent with the 
original terms, before that permit would become valid.
    We have not had issues of enforcement or lack of compliance 
as a significant problem in our delivery of the program thus 
far. We find in general that landowners are very supportive of 
doing work. They want to have assurance about what their future 
commitments and liabilities will be, but they are strong land 
stewards and find these tools to be helpful to them to 
understand what it is that they can do to contribute to 
conservation, and then what return the commitment from the Fish 
and Wildlife Service will be.
    Senator Cardin. Thank you very much.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I appreciate you have been there for a long time, so you 
have worked in these programs, and that helps us out a little 
bit up here. You looked at things in the past that have worked 
and worked very well. My concern is if something is working 
real well, I don't want to change it. And you happened to be 
involved in something that is working well.
    You made a brief reference to some of the things like Safe 
Harbor agreements. Would you like to elaborate on that or give 
us any examples that might be helpful?
    Mr. Frazer. We have a number of successful examples of safe 
harbor agreements, one most recently that we entered into is in 
the State of Idaho, where the Hixon family enrolled 7,800 acres 
of their lands on the Ox Ranch into a 10-year agreement to 
benefit the species. It is one that serves to address 
conservation of this small ground squirrel, with ongoing 
ranching.
    We find in many cases the interest of ranchers to stand 
their ground on the land, be able to run economically viable 
ranching operations is very compatible with the long-term 
conservation of listed species.
    Senator Inhofe. So what you are saying is, if they are 
doing it, and it is successful, that is where the safe harbor 
would come in. You are not going to interfere with something 
that is working well.
    Mr. Frazer. Right, and there may be some cases in which 
they would manage their land in a slightly different way, put 
in a rotational grazing system, do some restoration of water 
resources of other sorts of things that are very much 
consistent with the ranching operation, but that will also 
benefit listed species, and that would bring those in 
reconciliation. And then to have assurance that those programs, 
those activities will be in compliance with the Endangered 
Species Act.
    Senator Inhofe. And that is exactly what we experienced in 
2005 in our hearing. Because, you know, I think you would agree 
with me, landowners want to do this. They are interested in the 
conservation, whether it is species or anything else, as 
opposed to someone saying you are not going to do it unless we 
force you to do it.
    Mr. Frazer. It has.
    Senator Inhofe. I mentioned that I was concerned that 
several millions of dollars have been newly designated for 
``assistance in response to climate change.'' What climate 
change are you talking about, or are they talking about? I am 
not blaming you for this because you inherited this, so tell me 
how you are spending those millions of dollars.
    Mr. Frazer. Senator, as you know, we are facing some very 
difficult and constrained budget environments, and so the Fish 
and Wildlife Service last fiscal year and in the current fiscal 
year request has had to put together some pretty tightly 
constrained requests.
    The fact that we included funding in our budget request for 
the Partners Program to support climate change adaptation I 
think is really a reflection about the utility, the value and 
the performance of that program and the importance of habitat 
management on private lands to accomplish the conservation 
goals of protecting wildlife and maintaining wildlife into the 
future in the face of a rapidly changing physical environment.
    Senator Inhofe. Well, yes, if it is rapidly changing, and 
that is my point. I won't ask you, because there isn't time to 
get into this, but for the record in writing if you would 
respond as to how specifically you are spending that money, and 
to what you are observing in terms of rapid changes and all 
that. Would you do that?
    Mr. Frazer. We would be happy to.
    Senator Inhofe. That would be good.
    One of the things you are doing real well, in my 
experience, and I keep lauding these compliments on what is 
going on in your department, is working with the State people. 
My State people tell me that you have a relationship that is 
very, very good and very cooperative. Would you agree with 
that? How do you happen to be doing this? Because I know that I 
hear just really good things from all of our State people on 
how this is being run.
    Mr. Frazer. We do work very hard. The State Fish and 
Wildlife Agencies are the other entity in our larger 
governmental system that really has responsibilities, like the 
Fish and Wildlife Service, for conservation of fish and 
wildlife. They, in most cases, have actually the management 
authority for many of the species that we deal with in the 
Endangered Species Act before they actually get listed.
    They are great partners in every aspect of any other 
program that we do. We work very hard through the Association 
of Fish and Wildlife Agencies and through other just personal 
contacts to communicate effectively, to make sure there are no 
surprises and to talk about our common goals.
    Senator Inhofe. And that is the partnership we are talking 
about. You have the Federal, you have the State and you have 
the landowners, the stakeholders. I think that is working very 
well.
    Just real briefly, are there any bureaucratic obstacles out 
there that have inhibited your fully implementing your Partners 
Program?
    Mr. Frazer. Well, Senator, we can always use more resources 
to support more partnerships and such. But in terms of the 
bureaucratic obstacles, this program was designed from the very 
inception to be creative, to be flexible, to be able to be 
responsive to the need and has done a tremendous job in doing 
so. It continues to reinvent itself and take new directions 
every day.
    Senator Inhofe. OK. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Cardin. Senator Whitehouse.
    Senator Whitehouse. Mr. Frazer, I have a couple of 
questions that relate back to my home State of Rhode Island. As 
you know, Rhode Island's rivers were our workhorse in the 
industrial revolution. A lot of damage was done to them in that 
role, and now we are developing them as a resource for a modern 
economy with an important quality of life component for 
businesses that seek to relocate to Rhode Island and bring jobs 
there.
    Restoring the rivers is a real priority, and things like 
fish ladders are very important. Your program has supported a 
fish ladder at the Palmer River, which is one of the last two 
shad runs off of the Narragansett Bay, and projects like that 
that are actually on the ground we find very helpful and 
tangible and real. And I am wondering what part of the budget 
goes to those sorts of projects? If you have a hard dollar 
number and a percentage number, I would be interested in that. 
And if you don't have it off the top of your head, I would be 
happy to have you take that back as a question for the record.
    Mr. Frazer. I will have to get back with you. We do, 
through the Coastal Program, those boots on the ground, those 
biologists that really are trying to identify the needs and 
developing the conservation design and bringing partners 
together. And those partners involve multiple sources of 
funding even within the Fish and Wildlife Service.
    So there are several different funding lines that are in 
many cases brought together to support some of those fish 
passage projects that you referred to. We would be happy to try 
to give you a good estimate of where those dollars are and how 
much.
    Senator Whitehouse. That would be helpful. Fish passages, 
eel grass beds, those sorts of things that are really tangible 
make a significant difference and I appreciate you getting back 
to me on that.
    It means a lot to Rhode Island. Over the weekend, I was at 
a dam on the Providence River in East Providence with a guy 
named Keith Gonzalez, who has organized a group of people. 
There must have been 30 or 40 there that day to literally stand 
in the water below the falls with nets and scoop herring. And 
then a fireman's bucket brigade style passed the net up the dam 
and around and into the slack waters behind the dam so that the 
herring can move on to their traditional spawning grounds. The 
tide wasn't quite right for it, but they wanted to do it as an 
activity around the 40th anniversary of Earth Day.
    So these things really matter to us, and I would appreciate 
all of the attention that you can give to them. And we have an 
awful lot of dams in Rhode Island from times gone by that could 
use this attention.
    The other question I have for you has to do with the 
Department of Interior Climate Change Planning and Funding 
Initiative. We don't find the Coastal Program explicitly 
included in DOI's Climate Change Initiative. And for the 
reasons I spoke to at the beginning of the hearing, that is 
quite a concern.
    Rhode Island, like Maryland and other coastal States, not 
only suffers the terrestrial effects of climate change. We see 
it in changing habitat patterns. We see it in our orchardmen 
seeing winter blooms, potentially putting at risk their crops. 
But we also have to face the coastal consequences of climate 
change, and it is a little bit discouraging if the Coastal 
Program is being overlooked in that context, because for a 
coastal State, the coastal effects of climate change could 
actually be the most severe ones.
    Even if you get a few inches of sea level rise, in Rhode 
Island, for instance, Narragansett Bay is a triangular wedge 
driving northwards up into Rhode Island, and just a little bit 
of additional sea level, if it is all being driven northward by 
a storm or hurricane and it starts piling up on itself, by the 
time it hits the Providence hurricane barrier, that extra inch 
or so is now stacked up to the difference between a bad rainy 
day in downtown Providence and another flood and another set of 
plaques on our downtown buildings showing here is where the 
great flood of whatever year brought the waters to.
    So I would encourage you to find a way to put the Coastal 
Program into that initiative if it is not in it already.
    Mr. Frazer. Senator, I think that that is a concern that 
many program people within the Fish and Wildlife Service have, 
but it is a function of how the Service is trying to build our 
climate change capabilities here. We are really focusing upon 
building an organizational capability that will support all 
programs in the Fish and Wildlife Service to do landscape level 
biological planning and conservation design.
    The reality is that the Coastal Program was one of the 
first entities that we had in the organization that actually 
had that as part of their core mission. So I think that the 
money that we are investing here in building that larger 
capability and reaching out to other partners--State, NGO, 
other Federal agencies--is going to very much involve our 
Coastal Program folks. And those folks are going to inform 
those efforts tremendously.
    And then the other significant investment is in science, to 
address climate change impacts and needs. And again, those are 
needs and benefits are going to accrue to the Coastal Program I 
think disproportionately to some others because of the 
character and nature of the environment they work in and the 
mission that they have.
    We don't have a specific label for the Coastal Program. We 
expect that those investments that we are making for climate 
change are going to benefit all parts of the organization, and 
the Coastal Program in particular I think is going to be a very 
large part of that.
    Senator Whitehouse. I am glad to hear that. Thank you.
    Senator Cardin. Thank you, Senator Whitehouse.
    Let me just follow up on your point about these fish 
ladders and invite you up to the Conowingo Dam on the 
Susquehanna. As you know, Susquehanna headwaters are in 
Cooperstown, New York, and flow into the Chesapeake Bay, a 
major source of fresh water, the major source of fresh water 
for the Chesapeake Bay. It is also a great area for spawning of 
fish.
    The problem is the Conowingo Dam would stop those fish from 
returning for spawning, and a fish elevator was put in. And it 
is an incredible sight to see, and I invite you up to take a 
look at it, because you have dams and this may be one of your 
answers. It is working very well on the Susquehanna. We always 
try to help our friends from Rhode Island.
    It is an automatic system. It is an elevator. I don't know 
the biology--maybe Mr. Frazer can help me on it-- but the fish 
go into the water and are then picked up like a traditional 
elevator and they swim out upstream. It works.
    Mr. Frazer. It does.
    Senator Cardin. But it is an incredible restoration of the 
Susquehanna.
    Mr. Frazer. We are doing many much smaller and less 
technologically complex fish passage projects up in Rhode 
Island streams. Our Directorate met there a couple summers ago, 
a couple of springs ago, actually, and went out to see some of 
the projects. And to see alewife now crowding a small stream 
that they had been excluded from for many years is a great 
sight to see.
    Senator Cardin. Mr. Frazer, thank you very much for your 
testimony and for your work. We look forward to continuing to 
work with you on this.
    Mr. Frazer. Thank you very much.
    Senator Cardin. We will now turn to our second panel. I am 
going to introduce the first two witnesses, and then turn to 
Senator Inhofe for a witness from his State.
    First, Mr. Jeffrey Benoit, President and CEO of Restore 
America's Estuaries, an alliance of 11 community-based 
conservation organizations that work to restore and protect 
estuary habitats. Mr. Benoit began his career as a coastal 
geologist and went on to become Director of NOAA's Office of 
Ocean and Coastal Resource Management. Mr. Benoit's 28-plus 
years of leadership in coastal conservation make him an 
invaluable resource for us in protecting our coastal lands in 
Maryland and beyond.
    I would also introduce Ms. Robyn Miller. We welcome Ms. 
Miller, Conservation Manager from The Nature Conservancy in 
North Idaho. You have come a long way, so we thank you for 
making the effort to share your expertise in this area and we 
look forward to hearing your testimony.
    With that, I would recognize Senator Inhofe.
    Senator Inhofe. Thank you.
    I have already mentioned a couple of things about Ms. 
Straughn. It is very unusual, Debbie, that we have the witness 
coming back. And so it shows that we hold you in a very high 
regard.
    I say to my panel members that Ms. Straughn, she headed up 
the Outdoor Classroom thing at a school called Deer Creek, and 
it was so well done that she has now moved over to the current 
Grove Valley Elementary School and is doing the same thing. But 
to show you the cooperation we are getting, I hope in your 
opening statement you will touch upon what is happening with 
Tinker Air Force Base, how they are working in here with you 
also.
    And so this really is a partnership in what is going on, so 
she has done a great job, and now we are just expanding her 
talents to other institutions.
    Senator Cardin. Thank you.
    We will start with Ms. Miller.

   STATEMENT OF ROBYN MILLER, INLAND NORTHWEST CONSERVATION 
                MANAGER, THE NATURE CONSERVANCY

    Ms. Miller. Good morning, Mr. Chairman and members of the 
Subcommittee. On behalf of The Nature Conservancy, I appreciate 
the opportunity to provide testimony on collaborative 
approaches to habitat and wildlife management.
    I am Robyn Miller, Conservation Manager for The Nature 
Conservancy in northern Idaho. And today my comments are going 
to focus on three areas. Why collaboration is a valuable tool 
for fish and wildlife habitat management. I will provide an 
example of a collaborative partnership in Idaho called the 
Clearwater Basin Collaborative, and also mention a couple of 
programs of the U.S. Fish and Wildlife Service that support 
local collaborative efforts.
    The Nature Conservancy is an international nonprofit 
organization that is dedicated to the conservation of 
biological diversity. Our mission is to preserve the plants, 
animals and natural communities that represent the diversity of 
life on Earth by protecting the lands and waters they need to 
survive. Our on the ground conservation work is guided by 
science and occurs in all 50 States and 35 other countries.
    Our science has shown that there is great overlap between 
rural landscapes where people live and work and priority areas 
important for fish and wildlife. Even in a State like Idaho 
with large tracts of public lands, it is the private working 
lands, the farms, ranches and forests, that offer 
disproportionate value for wildlife.
    In these landscapes, the fate of wildlife and the fate of 
our rural communities are often intertwined. Therefore, 
effective conservation must find a way to address the needs of 
both the human and natural communities.
    True collaboration is not easy, and it is not quick, and 
frequently is it quite humbling. However, the results of 
collaboration can and should be conservation that takes a broad 
view and sees humans as an integral part of the landscape and 
provides more widely accepted, and hence stronger protections 
for fish and wildlife.
    My written statement provides you with several concrete 
examples of how this works. Today, I am going to highlight one 
of these collaborative efforts in Idaho, the Clearwater Basin 
Collaborative.
    The Clearwater Basin in north central Idaho is one of the 
most biologically rich and diverse drainages in the Columbia 
Basin. It supports over 19 native fish species and 340 wildlife 
species. In 2008 Senator Crapo convened the Clearwater Basin 
Collaborative and continues to play a key role in fostering 
dialogue to address the natural resource challenges of this 
spectacular landscape.
    For the past 2 years, representatives of local government, 
the Nez Perce Tribe, timber industry, recreation, conservation 
organizations, and economic development have come together 
working toward broad-based solutions to preserve our rural 
economies, protect our intact landscapes, and restore healthy 
forest ecosystems for fish and wildlife.
    I can tell you that sitting at the table with the 
Clearwater Basin Collaborative is an incredibly powerful 
experience. It is moving to see people who have literally spent 
decades fighting each other, coming together and instead 
building trust around a vision for the landscape, a vision of 
healthy, resilient forests, clean rivers, ample opportunity for 
recreation, and thriving local communities. The challenges are 
great, but it is our commitment to this broad vision that 
ensures our collective success.
    Last, I would like to highlight two programs of the U.S. 
Fish and Wildlife Service that also support collaborative 
efforts on the round. We heard some of that from the previous 
witness. The National Coastal Wetlands Conservation Grant 
Program is a competitive grant program providing support to 
collaborative partnerships focused on the acquisition, 
restoration and enhancement of coastal wetland habitats. 
Although we don't have any coastal wetland habitats in Idaho, 
The Nature Conservancy has been successful in other areas of 
the country, and my written testimony talks about some of those 
examples.
    Likewise, the Partners for Fish and Wildlife Program is 
based on the premise that fish and wildlife conservation is a 
responsibility shared by citizens and government. It has 
exemplified cooperative conservation as an innovative, non-
regulatory voluntary partnership program that helps private 
landowners restore important fish and wildlife habitat. Again, 
examples of how our organization has been involved with that 
program are included in my written testimony.
    Thank you again for the opportunity to talk about our 
experience working collaboratively to create solutions for fish 
and wildlife management. Collaborations are far from perfect, 
but they are essential in developing strategies that are 
adapted to local conditions, gain broad community support, and 
ultimately produce more sustainable and more effective outcomes 
for fish and wildlife.
    Thank you.
    [The prepared statement of Ms. Miller follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Cardin. Thank you, Ms. Miller, for your testimony.
    Mr. Benoit.

    STATEMENT OF JEFFREY BENOIT, PRESIDENT AND CEO, RESTORE 
                      AMERICA'S ESTUARIES

    Mr. Benoit. Good morning, Chairman Cardin and members of 
the Subcommittee. I am Jeff Benoit, President and CEO of 
Restore America's Estuaries. I am pleased to be here today to 
discuss our collaboration with the U.S. Fish and Wildlife 
Service Coastal Program, one of the vital programs woven into 
the fabric of working partnerships needed to restore and 
maintain the water quality and ecological integrity of our 
Nation's coasts and estuaries.
    Restore America's Estuaries has been working since 1995 to 
restore our Nation's greatest estuaries. We are a national 
alliance of 11 community-based organizations that protect and 
restore coastal and estuarine habitat. Our 11-member 
organizations represent such estuaries as the Chesapeake Bay, 
Narragansett Bay, Long Island Sound, Puget Sound, San Francisco 
Bay and Tampa Bay.
    As you know, estuaries are among the most biologically 
productive and economically valuable places on Earth. 
Unfortunately, estuaries are in a perilous state due to 
increasing levels of stress from development and climate 
change. Our challenges may be daunting, but through 
collaborative efforts like the partnership that we have with 
the Coastal Program, significant progress has been made, and we 
know this is only the beginning.
    But what makes for a successful partnership? First, it is 
important to realize that successful partnership does not just 
happen. It takes hard work and requires planning, dedication 
and constant nurturing.
    There are three essential components that must exist for a 
partnership to be successful: a long-term commitment to work 
together; a willingness to share knowledge, expertise and/or 
capacity; and shared goals. If any of these elements are 
missing or weak, the partnership is doomed to fail.
    Fortunately, we have enjoyed a strong partnership with the 
Coastal Program for many years, and we offer the following 
recommendations which, if implemented, would significantly 
strengthen the effectiveness of the program both within the 
Service and for working with partners on the ground.
    Our first recommendation: authorize the program. We believe 
that authorizing the Coastal Program into law is the most 
important action the Congress could take to improve the 
effectiveness of this important program. Congress would declare 
that protecting, restoring and enhancing habitat for the 
Service's coastal dependent trust species is a priority and 
that the Coastal Program plays a vital role in that effort.
    And further, authorizing the program would provide 
assurance to Coastal Program partners like ourselves that the 
program will continue to be around for time to come. And 
through codification, Congress also would help ensure the 
fidelity of annual Coastal Program appropriations. As we work 
to increase the pace and scale of restoring habitat nationwide, 
funding fidelity is crucial to ensure that Coastal Program 
dollars are spent wisely and for the purposes intended by 
Congress.
    Recommendation two: enhance the commitment to partnerships. 
Currently, each region of the Fish and Wildlife Service has 
individual discretion over whether they employ dedicated 
Coastal Program coordinators or liaisons, thus creating a 
confusing lack of order and access to the program across the 
regions. We believe that in order for the Coastal Program to be 
truly national in scope, each region must have full-time 
liaisons that are dedicated solely to the Coastal Program.
    Recommendation three: better integration with Department of 
the Interior initiatives. As part of the DOI's Climate Change 
Initiatives, the Service has launched an integrated effort to 
strategically link science, planning and conservation services 
through the landscape conservation cooperatives. Since coasts 
will experience the first signs and impacts of sea level rise 
and other climate change impacts, the Coastal Program is 
uniquely situated to translate the science of LCCs and to 
deliver on the ground habitat restoration to priority habitats.
    And the recently announced Great Outdoors Initiative is 
another opportunity to integrate Coastal Program services with 
Department of the Interior programs.
    And fourth, our final recommendation: realign 
responsibilities for the Coastal Barrier Resources Act. A 
somewhat odd relationship has developed over time between the 
Coastal Program and the Coastal Barrier Resources Act, or CBRA. 
Implementation of Service responsibilities for preparing maps 
under CBRA is administered by the Service's Branch of Resource 
Mapping and Support, but funding for CBRA, over $700,000 for 
2010, comes out of the Coastal Program. The annual funding 
level for CBRA is never explicitly expressed by the Service, 
which adds additional uncertainty to funds actually available 
for the Coastal Program.
    We strongly recommend that all budget and implementation 
responsibilities within the Service for the Coastal Barrier 
Resources Act be aligned under the Branch of Resource Mapping 
and Support.
    Thank you, and I would be happy to answer any questions.
    [The prepared statement of Mr. Benoit follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    

    
    Senator Cardin. Thank you very much for your testimony.
    Ms. Straughn.

     STATEMENT OF DEBBIE STRAUGHN, PRINCIPAL, GROVE VALLEY 
              ELEMENTARY SCHOOL, EDMOND, OKLAHOMA

    Ms. Straughn. Good morning, Chairman Cardin and members of 
the Subcommittee. I am Debbie Straughn, Principal of Grove 
Valley Elementary in Edmond, Oklahoma.
    Thank you for the invitation to testify at today's hearing 
and share with you my involvement with the U.S. Fish and 
Wildlife Service's Partners for Fish and Wildlife Program.
    As you know, I am the Principal at Grove Valley Elementary, 
a brand new school in the Deer Creek School District located in 
Edmond, Oklahoma. I first became involved with the Partners for 
Fish and Wildlife Program in 2002 while serving as an 
elementary Principal at Deer Creek Elementary School.
    As a leader of our school, I was looking for a program to 
involve all children in hands-on learning opportunities while 
working with the environment. It was very important to me to be 
able to add environmental studies for our students. We began by 
forming a task force for teachers, parents and students. This 
task force visited outdoor classrooms throughout the State of 
Oklahoma. We came back from these visits with a vision of what 
we wanted our outdoor habitat to look like. Plans were created, 
and I contacted contractors to build our wetland and frog pond.
    We quickly learned that we were being taken advantage of 
and that the job was not being completed correctly. Out of 
desperation, I began making phone calls throughout the State of 
Oklahoma. It was at this point that we contacted Terry Dupree 
and Jontie Aldrich with the Oklahoma Partners for Fish and 
Wildlife Program. They were able to provide us with assistance 
and training with an outdoor classroom. Resources, contacts and 
a new design were given to us so our dream of an effective 
outdoor classroom could come true. The outdoor habitat became a 
reality because of their guidance.
    I feel it is very important for our children to be involved 
in an outdoor classroom because it gives them an opportunity to 
be outside and learn about their environment. The outdoor 
classroom provides an ideal structured learning for the 
children and promotes ideal wildlife habitat.
    The teachers, students and parents take ownership in their 
outdoor classroom. Every child at Deer Creek Elementary was 
involved in the outdoor habitat. For example, the kindergarten 
students constructed a bird sanctuary. The first grade students 
developed a flower garden; second grade, a butterfly garden in 
the shape of a butterfly; and third grade, a vegetable garden; 
and fourth grade, a flower garden in the shape of Oklahoma; and 
fifth grade built a bird blind and a frog pond.
    We also built a gazebo with help from the U.S. Fish and 
Wildlife Service, and students utilized the gazebo for hands-on 
science experiments. They also helped us design wetlands, 
walkways with animal tracks, and artificial nesting structures 
for wildlife.
    This outdoor habitat gave children an interactive learning 
environment. The U.S. Fish and Wildlife Service nominated us 
for the U.S. Department of Interior Pride in America Award. I 
was honored to accept this award in Washington, DC, several 
years ago for my school.
    I am now the Principal of a new elementary school, Grove 
Valley Elementary. I am in the process of once again building a 
new outdoor classroom. I am fortunate as there is a natural 
wetland onsite. Tinker Air Force Base is providing my school 
with a large grant. We have a new design after many hours of 
preparation to improve the outdoor habitat. Enhancements to the 
wetland began several months ago. We will be adding trails, 
bridges and walkways to the area, too.
    One hundred percent of the Grove Valley Elementary children 
will be involved in designing their own areas to care for and 
nurture. We hope to begin this project in the fall.
    The Partners for Fish and Wildlife Program is once again 
helping us with this new habitat. Jontie Aldrich has visited 
the site and given us advice, along with Tinker Air Force Base. 
They plan to work with us as the project is being completed and 
offer assistance as needed.
    The Oklahoma County Conservation District is also working 
as a partner with the Tinker Air Force Base and our school, and 
they helped us in the initial program. This outdoor classroom 
is going to be shared with the community neighborhood. We even 
plan to have fishing opportunities.
    As you can see, I am passionate about teaching children 
about the environment. Approximately 2 percent of our 
schoolchildren in the United States have an opportunity to work 
at an outdoor classroom, compared to the early 1900s where 
almost every child had an opportunity to work the land or 
understand wildlife.
    I am dedicated to teaching children about the environment. 
I thank all of the Senators that support the Partners for Fish 
and Wildlife Program, especially Senator Inhofe who championed 
the Partner Program into law.
    I want to represent all children in schools in the United 
States so they, too, can experience outdoor classrooms and 
hands-on learning opportunities with our environment. Children 
are our future, and environmental studies for them are 
disappearing or unavailable. Please, please continue supporting 
Partners for Wildlife Programs so that children everywhere 
continue to explore and understand their environment. This is 
one Government program that truly benefits all.
    Thank you very much for your time.
    [The prepared statement of Ms. Straughn follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Cardin. Thank you, Ms. Straughn, for your 
testimony. First, thank you for your passion on this subject, 
and thank you for what you do for our children. I am convinced 
that you are right. If we can sensitize children to the awesome 
responsibilities that we have, that they will do what is right. 
So I thank you, and being outside is critically important.
    My colleague in the House, Congressman Sarbanes, has 
introduced No Child Left Inside for education so that we get 
more than 2 percent of our children having the experience of 
outdoor education. I think that is critically important, and I 
am glad that you figured out a way to get it done in Oklahoma.
    I guess my question to you is are there opportunities to 
share what you are doing in your classroom so that other 
teachers, other school systems can take advantage of the work 
that you did and be able to bring forward similar types of 
efforts and educational programs?
    Ms. Straughn. Yes, we have groups that visit our site 
throughout the school year, and we share with them what we are 
doing. We offer our experiences so that they, too, may be able 
to do the same thing that we have done.
    I also have done presentations to various groups, and I 
share the word with anyone and everyone that I can so that 
other schools can develop outdoor classrooms.
    Senator Cardin. Great. I think we need to try to 
institutionalize that a little bit better as far as sharing 
with what is being done around the Nation because it is no 
sense reinventing the wheel. You already have a successful 
program that could work in other communities. We just need to 
get that information out. I look forward to working with Fish 
and Wildlife in order to promote what you have done in 
Oklahoma. Great work.
    Ms. Miller, I am also familiar with the Clearwater River 
and what you have done. I find that an incredible example of 
cooperation. I know Senator Crapo has worked very hard on that.
    I guess my question to you is, from a pro point of view, 
what we should be doing in our programs to encourage that type 
of collaborative effort in the Federal partnership. And then 
from the other side, are there obstacles that we should try to 
remove that currently work against those types of collaborative 
efforts?
    Ms. Miller. Thank you for your question, Senator.
    The level of Federal support for habitat protection and 
acquisition is critical to the success of these collaborative 
efforts, providing incentives through programs that were 
mentioned here today, through other programs like the 
Collaborative for Landscape Restoration Act that the Clearwater 
Basin is developing a proposal for.
    Things like that, ideas that recognize the value of 
collaboration and partnership between local landowners, 
private, State government, as well as Federal Government that 
can focus on broad-based and locally adapted solutions for fish 
and wildlife is imperative. And providing incentives to these 
landowners to manage their lands in ways that benefit Fish and 
Wildlife Service gives stakeholders the tools that they need to 
be successful.
    Regarding your question on barriers, currently I think 
similar to your question regarding the outdoor classroom, I 
think there is a greater need for sharing, and sharing the 
experience and sharing our successes and also sharing some of 
our challenges and failures at times. So I think we are 
starting to see more of that, but ultimately I think that will 
lead to greater successes around the country.
    Senator Cardin. Thank you.
    Mr. Benoit, thank you for your testimony. You listed as 
your top priority the authorization of the Coastal Program. I 
certainly agree with you. You then list some additional points 
that are important for the Coastal Program. If I read your 
testimony correctly, you would place the highest priority on 
realigning the mapping responsibility with the Coastal Barriers 
Resources Act and suggest that be included in the authorization 
of the Coastal Program. Is that correct, that you would like to 
see that legislated as we do the authorization bill?
    Whereas your other recommendations are critically 
important. A lot of them are budget and coordination within the 
Department, and you believe need to be done through a budgetary 
process rather than through legislation. Or am I misreading 
your testimony?
    Mr. Benoit. Very good question, Senator. We believe that 
the realignment of the Coastal Barrier Resources Act can be 
done administratively by the Department.
    Senator Cardin. Oh, that can be done also administratively?
    Mr. Benoit. Right. It is already authorized. It is actually 
coming up for reauthorization this year. And it could very 
easily stand on its own, and we are very confused why it is so 
closely aligned with the Coastal Program, except that that 
seems to be where they take the funding from to implement that 
program.
    And the Coastal Barrier Resources Act is an important 
program. We would just like to see it have a little bit more 
definition in terms of where the funding is actually coming 
from, and not impede the progress of the Coastal Program.
    Senator Cardin. The enhanced commitment to partnership and 
the coordination with the Department of Interior, and the 
personnel issues that you are referring to, we could look at on 
an authorization bill, but it seems to me many of those are 
just relationships and budget issues, more so than spelling it 
out.
    We could, of course, express our congressional intent to 
work with you closely to see whether we can't at least be 
supportive. I think your recommendations are right on target, 
and we will try to work with you to see that that's done.
    Mr. Benoit. Thank you. We appreciate your support on that, 
and we look forward to having an authorized program as soon as 
possible.
    Senator Cardin. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Ms. Miller, please understand that Senator Crapo really 
wanted to be here. This thing that came up was at the White 
House and was at the last minute.
    Now, I notice that you are the manager of the Northwest 
United States District? Is that what I understand?
    Ms. Miller. The Inland Northwest. I am responsible for the 
Northern Panhandle Region, from the Clearwater River north to 
the Canadian border.
    Senator Inhofe. So that doesn't include Oklahoma?
    Ms. Miller. I am sorry. It doesn't reach all the way to 
Oklahoma.
    [Laughter.]
    Senator Inhofe. There is a great program in Oklahoma that I 
was active in. This has been many years ago, but it was with 
the Conservancy. It was in the area that is called the Tall 
Grass Prairie. Ever heard of that? The Tall Grass Prairie is in 
central, north central Oklahoma, heavy in shallow oil 
production. However, they went in there, and they have now, 
through the Conservancy, and it was headed up in Oklahoma by a 
guy named Williams who was also an oil producer.
    And you would never know that there is production going on 
in there. They have buffalo, and it is exactly like it was at 
one time. I just want you to kind of go back and tell people 
that it is not just in your area that wonderful things are 
happening. So I appreciate what you are doing in Oklahoma.
    Ms. Miller. Thank you. We have some family ties personally 
to some of the lands in Kansas, but right on the Oklahoma 
border, so we are involved in some prairie restoration work, as 
well as some oil production.
    Senator Inhofe. Yes, that is good.
    Let me ask you, Ms. Straughn, how did you initiate your 
contact with Tinker? How did that work?
    Ms. Straughn. I am a Board Member for the Oklahoma County 
Conservation District, and that happened through my work with 
outdoor education. They have special projects that educate 
children about the environment. They asked me to serve on the 
Board. They contacted or were in contact with the Oklahoma 
County Conservation District. They heard about the mitigation 
of their wetlands. The district put me in contact with Tinker 
Air Force Base, and so we started some talks, and we have been 
dotting our Is and crossing our Ts in finding out exactly how 
we could do the project; as partners we have been very 
successful. We are now down to the finish line.
    They have sent us plans that look amazing. In fact I shared 
them with a member of your staff. I am getting ready to go to 
our Board of Education to share the plans. We hope to have 
everything finished by the fall.
    Senator Inhofe. That is really good. I spend a lot of time 
at Tinker. I am on the Armed Services Committee. And they do 
get involved in a lot of things that they really believe in. 
Apparently, you sold them on the idea that this is what they 
should be doing.
    And what I am going to do is, I did it once before 5 years 
ago. I came by and saw what you were doing there in Edmond at 
the other school. I want to do that again. My regular schedule 
is every fifth weekend, I am either in Iraq, Afghanistan or 
Africa, and then the other 4 weekends I am back in Oklahoma.
    I would really like to first-hand get updated on what you 
are doing there in Edmond, Oklahoma, at your school, and take 
that around the State to other places. So we will be contacting 
you to get together and come out there and make a visit to see 
first-hand what you are doing.
    Ms. Straughn. We would love to have you, Senator. Thank you 
very much.
    Senator Inhofe. Now, other than Tinker Air Force Base, do 
you have any other partners who you either have approached or 
have come to you to support this program?
    Ms. Straughn. In my previous elementary school, we worked 
with many partnerships. We had a person that made a sign for 
us; of course, the U.S. Fish and Wildlife Service; and the 
Oklahoma County Conservation District. We worked with Learn and 
Serve America, In Service Learning, because our children were 
actually servicing by working in the outdoor classroom after 
hours and during the summer months.
    Also our Deer Creek School Enrichment Foundation gave us a 
grant. We have been trying to partner with many, many different 
individuals and organizations and groups.
    Senator Inhofe. Do you have any anecdotal things that maybe 
some of your students, how they have benefited from this that 
you would want to share with us?
    Ms. Straughn. I think it is really interesting to see 
children go out into a garden where they are growing various 
vegetables. I had a kindergarten student who one time said 
well, I thought you got a tomato at a grocery store. I mean, 
they don't really understand exactly how a tomato grows. The 
children were very excited to take those tomatoes in and make 
some salsa out of them.
    It was very exciting to be able to see first-hand children 
making a connection of plants and how they actually grow, and 
then how you can utilize them by cooking.
    Senator Inhofe. Well, I am looking forward to coming out 
and visiting you, and we will arrange that pretty quick.
    Ms. Straughn. Thank you very much, Senator.
    Senator Inhofe. Thanks for repeating your performance up 
here.
    Senator Cardin. I want to thank all of our witnesses. To 
me, it just points out that with a very modest amount of 
Federal investment and encouragement, what you can do with the 
private sector and get done. The examples of what you have been 
able to do in Oklahoma in the classroom; what you have been 
able to do in Idaho with a major environmental treasure; and I 
am particularly proud of the work that has been done on the 
Chesapeake Bay in our region.
    But all of The Nature Conservancy and the Restore America's 
Estuaries have been critical players in this private-
governmental partnership. And I just think these are models 
that we need to really, first of all, let people know what is 
happening; and second, promote in other parts of our country. 
And it is really a modest Federal investment, but I would just 
urge us to take these models and make them available elsewhere 
in the country.
    I think your program in Oklahoma is a model program. I can 
tell you there are many classrooms in my State and around the 
Nation where it would be very well received. They don't need 
too much encouragement, but they need some help to get started, 
the technical help. It is a little bit intimidating to get 
started, as you know. And you all have done that successfully 
in Idaho and in Oklahoma. And I would just hope we could 
benefit and take that to other parts of the country.
    It does show, though, we do need to make sure we coordinate 
the programs that are available. I strongly believe that the 
Coastal Program, which has been very beneficial, needs 
congressional authorization, and I am going to work very 
closely with Senator Crapo on developing that legislation in 
our Subcommittee, working very closely with Senator Inhofe and 
Senator Boxer and our full Committee to see whether we can't 
get that bill moving forward.
    With that, let me thank you again.
    The hearing of the Subcommittee will stand adjourned.
    [Whereupon, at 11:10 a.m. the Subcommittee was adjourned.]
    [Additional material submitted for the record follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    
                                 <all>
</pre></body></html>
